HHS/OIG-Audit-"Review of the Puerto Rico Treasury Department Expired Uncashed Checks,"(A-02-99-02004)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Puerto Rico Treasury Department Expired Uncashed Checks," (A-02-99-02004)
October 9, 2001
Complete
Text of Report is available in PDF format (1.24 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out the same deficiencies as three previous audits. In three previous audits covering a 17-year
period, July 1976 through June 1993, we identified serious control deficiencies at Puerto Ricos Treasury Department
(PRTD) and its State agencies with respect to identifying, reporting, and crediting the Federal Government for its share
of expired uncashed checks that were originally charged to Federal programs when the checks were issued. Because the checks
were not cashed and voided, the State did not incur these expenses. During our current audit, which covered the period
July 1, 1993, to June 30, 1998, we found that PRTD had made no significant progress in ensuring that the Federal Government
received proper credit for expired uncashed checks. In addition to a comprehensive corrective action plan, we recommended
that Puerto Rico refund the estimated $2 million due the Federal Government for Fiscal Year (FY) 1994 and compute the actual
credit due the Federal Government for FYs 1995 to present or reach a negotiated settlement with the Department. The Commonwealth
accepted our recommendations and stated that since PRTD is under a new administration, it would take the opportunity to
compute the actual credit due the Federal Government for subsequent years.